No. _________
In the

Supreme Court of the United States
__________
JAMES WARNER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

__________
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

HAROLD GUREWITZ (P14468)
Counsel of Record
GUREWITZ & RABEN, PLC
333 W. FORT STREET
SUITE 1400
DETROIT, MI 48226
(313) 628-4733
hgurewitz@grplc.com
Attorney for Petitioner

-iQUESTION PRESENTED
In Stirone v. United States, 361 U.S. 212 (1960), this
Court held that a jury instruction that broadens the
charges of an indictment is fatal error. Since Stirone,
however, courts have disagreed when reviewing claims
of constructive amendment to which no objection was
made at trial whether a jury instruction that broadens
the charges of an indictment affects the defendant’s
substantial rights.
In this case, Mr. Warner’s Indictment was
constructively amended by a jury instruction that
added a bribery offense different than as charged by
the grand jury. Counts One, Five and Seven of his
indictment charged Mr. Warner with conspiracy to
solicit and receive bribes. The jury instruction
erroneously stated, however, that the grand jury only
charged conspiracies in which his co-conspirators
would offer and pay bribes to Warner in violation of a
different statute. The Court of Appeals affirmed Mr.
Warner’s convictions on those counts on plain error
review concluding that the erroneous instruction
“conflating [] payor and payee bribery would not have
affected Warner’s substantial rights with regard to his
conspiracy convictions.” (App. A, p. 12).
The Question Presented is :
Whether the constructive amendment of an
indictment by an erroneous jury instruction,
stating that conspiracy counts alleged
agreements to violate a different bribery statute
from that alleged by the grand jury, is
prejudicial per se on plain error review?

-iiPARTIES TO THE PROCEEDINGS
The parties are only those named in the caption.
STATEMENT OF RELATED PROCEEDINGS
This case arises from and is related to the following
proceedings in the U.S.Court of Appeals for the Sixth
Circuit and the U.S. District Court for the Eastern
District of Michigan:
! United States v. James Warner, Case No. 201148 (6th Cir.)(opinion affirming conviction
issued February 8, 2021; petition for panel
rehearing and rehearing en banc denied March
29, 2021; mandate issued April 7, 2021)
! United States v. James Warner and Douglas
Earles, Case No. 18-20255, (E.D. MI)(judgment
entered February 5, 2020 as to James Warner;
judgment entered September 26, 2019 as to
Douglas Earles)
There are no other proceedings in state or federal
trial or appellate courts directly related to this case
within the meaning of the Court’s Rule 14. 1(b)(iii).

-iiiTABLE OF CONTENTS
Question Presented . . . . . . . . . . . . . . . . . . . . . . . . . . i
Parties to the Proceedings . . . . . . . . . . . . . . . . . . . . . ii
Statement of Related Proceedings. . . . . . . . . . . . . . . ii
Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Table of Cited Authorities . . . . . . . . . . . . . . . . . . . . . v
Jurisdiction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Opinions Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Relevant Constitutional and Statutory Provisions . . . 1
Petition for Writ of Certiorari . . . . . . . . . . . . . . . . . . 5
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . 5
A. Factual and Procedural History . . . . . . . . . . . 5
B. The Decision Below . . . . . . . . . . . . . . . . . . . . 14
Reason for Granting the Petition . . . . . . . . . . . . . . 16
I. This Case Presents an Important and Recurring
Question Dividing Lower Courts on Plain Error
Review of Constructive Amendments of
Indictments by Erroneous Jury Instructions,
Whether Those Errors Affect Substantial Rights
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
A. An Erroneous Jury Instruction That
Broadens Charges Made By The Grand Jury
Is Prejudicial Per Se . . . . . . . . . . . . . . . . . . . 16

-ivB. Since Stirone, Lower Courts Are in Open
Disagreement Whether An Erroneous
Jury Instruction Broadening An
Indictment, Where Objection Is Not
Preserved, Affects The Defendant’s
Substantial Rights And Is Plain Error. . . . . 19
II. The Sixth Circuit Erred In Holding That The
Erroneous Jury Instruction Broadening Charges
In Three Counts of Warner’s Indictment Was
Not Plain Error . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Appendix:
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(February 8, 2021) . . . . . . . . . . . . App. 1
Appendix B Judgment in a Criminal Case in the
United States District Court Eastern
District of Michigan
(February 5, 2020) . . . . . . . . . . . App. 15
Appendix C Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(March 29, 2021) . . . . . . . . . . . . . App. 34
Appendix D Jury Instruction No. 15 Excerpt
(June 4, 2019) . . . . . . . . . . . . . . . App. 36
Appendix E Fifth Superseding Indictment in the
United States District Court Eastern
District of Michigan Southern Division
(January 9, 2019) . . . . . . . . . . . . App. 38

-vTABLE OF CITED AUTHORITIES
Apprendi v. New Jersey,
530 U.S. 466 (2000). . . . . . . . . . . . . . . . . . . . . . . 22
Gaither v. United States,
413 F.2d 1061 (D.C. Cir. 1969). . . . . . . . . . . 26, 27
Johnson v. United States,
520 U.S. 461 (1997). . . . . . . . . . . . . . . . . . . . . . . 20
Russell v. United States,
369 U.S. 749 (1982). . . . . . . . . . . . . . . . . . . . . . . 17
Stirone v. United States,
361 U.S. 212 (1960). . . . . . . . . . . . . . . . . . . passim
United States v. Brandao,
539 F.3d 44 (1st Cir. 2008) . . . . . . . . . . . . . . 20, 23
United States v. Combs,
369 F.3d 925 (6th Cir. 2004). . . . . . . . . . 24, 26, 27
United States v. Cotton,
535 U.S. 625 (2002). . . . . . . . . . . . . . . . . . . . . . . 20
United States v. Dipentino,
242 F.3d 1090 (9th Cir. 2001). . . . . . . . . . . . . . . 28
United States v. Floresca,
38 F.3d 706 (4th Cir. 1994). . . . . . . . 18, 19, 21, 27
United States v. Hathaway,
798 F.2d 902 (6th Cir. 1986). . . . . . . . . . . . . . . . 18
United States v. Keller,
916 F.2d 628 (11th Cir. 1990). . . . . . . . . . . . 19, 27

-viUnited States v. Lawton,
995 F.2d 290 (D.C. Cir. 1993). . . . . . . . . . . . . . . 18
United States v. Leichtnam,
948 F.2d 370 (7th Cir. 1991). . . . . . . . . . . . . . . . 18
United States v. Madden,
733 F.3d 1314 (11th Cir. 2013). . . . . . . . 19, 23, 28
United States v. McKee,
506 F.3d 225 (3rd Cir. 2007) . . . . . . . . . . . . 22, 28
United States v. Miller,
471 U.S. 130 (1985). . . . . . . . . . . . . . . . . . . . 25, 26
United States v. Olano,
507 U.S. 725 (1993). . . . . . . . . . . . . . . . . . . . 20, 24
United States v. Remsza,
77 F.3d 1039 (7th Cir. 1996). . . . . . . . . . . . . . . . 25
United States v. Reyes,
102 F.3d 1361 (5th Cir. 1996). . . . . . . . . . . . . . . 24
United States v. Salinas,
654 F.2d 319 (5th Cir. 1981). . . . . . . . . . . . . . . . 26
United States v. Syme,
276 F.3d 131 (3rd Cir.2002) . . . . . . . 18, 19, 22, 27
United States v. Thomas,
274 F.3d 655 (2nd Cir. 2001) . . . . . . . . . . . . 19, 22
United States v. Zingaro,
858 F.2d 94 (2nd Cir. 1988) . . . . . . . . . . . . . 18, 27

-viiCONSTITUION
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES & STATUTES
18 U.S.C. §666 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
18 U.S.C. §666(a)(2) . . . . . . . . . . . . . . 8, 9, 12, 13, 16
18 U.S.C. §666(a)(1)(A) . . . . . . . . . . . . . . . . . . 6, 8, 11
18 U.S.C. §666(a)(1)(B) . . . . . . . . . . . . . . . . . . passim
18 U.S.C. §924(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
18 U.S.C. §1519 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
18 U.S.C. §1951 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
FRCrP 52(b) . . . . . . . . . . . . . . . . . . . . . 4, 5, 18, 19, 20

-1JURISDICTION
The Sixth Circuit issued its opinion on February 8,
2021 and denied rehearing en banc on March 29, 2021.
This Court has jurisdiction under 28 U.S.C. §1254(1).
OPINIONS BELOW
The Opinion of the Sixth Circuit is unpublished but
appears at 843 Fed Appx 740 (6th Cir. 2021) (App A,
App. 1). The Order denying Petitioner’s Petition for
Rehearing En Banc was filed on March 29, 2021. (App
C, App. 34).
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Grand Jury Clause of the U.S. Constitution,
Amendment V, clause 1, provides:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service in
time of war or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall
private property be taken for public use,
without just compensation.
The Federal Program Theft and Bribery Statute, 18
U.S.C. §666, provides:

-2(a) Whoever, if the circumstance described in
subsection (b) of this section exists—
(1) being an agent of an organization, or of a
State, local, or Indian tribal government, or any
agency thereof—
(A) embezzles, steals, obtains by fraud, or
otherwise without authority knowingly converts
to the use of any person other than the rightful
owner or intentionally misapplies, property
that—
(i) is valued at $5,000 or more, and
(ii) is owned by, or is under the care,
custody, or control of such organization,
government, or agency; or
(B) corruptly solicits or demands for the
benefit of any person, or accepts or agrees to
accept, anything of value from any person,
intending to be influenced or rewarded in
connection with any business, transaction, or
series of transactions of such organization,
government, or agency involving any thing of
value of $5,000 or more; or
(2) corruptly gives, offers, or agrees to give
anything of value to any person, with intent to
influence or reward an agent of an organization
or of a State, local or Indian tribal government,
or any agency thereof, in connection with any
business, transaction, or series of transactions of
such organization, government, or agency
involving anything of value of $5,000 or more;

-3shall be fined under this title, imprisoned
not more than 10 years, or both.
(b) The circumstance referred to in subsection
(a) of this section is that the organization,
government, or agency receives, in any one year
period, benefits in excess of $10,000 under a
Federal program involving a grant, contract,
subsidy, loan, guarantee, insurance, or other
form of Federal assistance.
(c) This section does not apply to bona fide
salary, wages, fees, or other compensation paid,
or expenses paid or reimbursed, in the usual
course of business.
(d) As used in this section—
(1) the term “agent” means a person
authorized to act on behalf of another person or
a government and, in the case of an organization
or government, includes a servant or employee,
and a partner, director, officer, manager, and
representative;
(2) the term “government agency” means a
subdivision of the executive, legislative, judicial,
or other branch of government, including a
department, independent establishment,
commission, administration, authority, board,
and bureau, and a corporation or other legal
entity established, and subject to control, by a
government or governments for the execution of
a governmental or intergovernmental program;

-4(3) the term “local” means of or pertaining to a
political subdivision within a State;
(4) the term “State” includes a State of the
United States, the District of Columbia, and any
commonwealth, territory, or possession of the
United States; and
(5) the term “in any one-year period” means a
continuous period that commences no earlier
than twelve months before the commission of the
offense or that ends no later than twelve months
after the commission of the offense. Such period
may include time both before and after the
commission of the offense.
Federal Rule of Criminal Procedure 52(b), provides:
A plain error that affects substantial rights may
be considered even though it was not brought to
the court’s attention.

-5PETITION FOR WRIT OF CERTIORARI
Petitioner James Warner respectfully petitions for
a writ of certiorari to review the judgment of the
United States Court of Appeals for the Sixth Circuit.
STATEMENT OF THE CASE
This case presents the pressing question dividing
lower courts whether a constructive amendment of an
indictment by a jury instruction, where a jury
instruction literally adds an offense to the indictment
not charged by the grand jury, affects the defendant’s
substantial rights and is plain error under Federal
Rule of Criminal Procedure 52(b).
A. Factual and Procedural History
1. James Warner, was employed as a field
construction inspector and Water Operator by the
Wayne County Airport Authority (WCAA) from 1997 to
August 15, 2014. Warner’s work before his employment
at the airport included operating heavy equipment
ranging from dump trucks, to snow removal and grass
cutting machinery for municipalities. He continued
that kind of work on weekends and during his off hours
after he was employed by the airport. Warner’s airport
work responsibilities included managing field
infrastructure maintenance, airport parking structure
maintenance, snow removal, and maintenance of field
water supply systems. He left his airport job in August
2014. He was hired in a similar position by the West
Bloomfield Township in suburban Detroit in January
2017 as a construction project manager in its Water
and Sewer Department. (R197: TR 6/3/19, Happala, E.,
Pg ID 2926-28, 2937).

-62. Warner was charged in Count One of his
indictment with conspiracy to commit Federal program
theft, 18 U.S.C. §666(a)(1)(A) and to solicit Federal
program bribes in violation 18 U.S.C. §666(a)(1)(B).
Count One alleged his co-conspirator was William
Pritula, the owner of Pritula and Sons Contracting, a
contractor who did business with Warner’s airport
employer,
The conspiracy allegations of Count One provide
that:
The Conspiracy
9. From in or about May of 2010, through in or
about October of 2014, in the Eastern District of
Michigan, Southern Division, and elsewhere,
defendant JAMES WARNER did unlawfully,
willfully, and knowingly combine, conspire, and
confederate, and agree with William Pritula and
others to commit:
a. Theft from a federally funded program, in
violation of Title 18, United States Code, Section
666 (a)(1)(A); and
b. Federal program bribery, in violation of Title
18, United States Code Section 666(a)(1)(B).
(App E: Fifth Superseding Indictment, App. 40).
Pritula testified at Warner’s trial that he met
Warner in 2003 after his company, Pritula and Sons,
contracted to repair airport field concrete and water
hydrants. (R193: TR 5/23/19, Pritula, W., Pg ID 2332).
Pritula’s company performed lucrative repair contracts

-7at the airport until 2014. The airport paid Pritula a
total of about $19,000,000 for his company’s work.
(R197: TR 6/3/19, Witkowski, B., Pg ID 2981).
After Pritula offered Warner a full-time position
with his company, Warner began working for Pritula
on Warner’s off-hours operating equipment at Pritula’s
various commercial customers. The two agreed on a
10% commission as compensation for Warner. (R198:
TR 6/4/19, Pritula, W., Pg ID 3076, 3135-36).
Eventually, because of Warner’s relevant contracting
expertise, Pritula involved Warner in preparation of
his company’s contract bid packets, invoicing and even
paying bills for Pritula’s company. (R193: TR 5/23/19,
Pritula, W., Pg ID 2323). The two would sit together to
pay Pritula’s bills.
Employees of Pritula and Sons knew that Warner
was working for the company in his off hours from his
airport job and that he and Pritula had a close working
relationship. Pritula’s daughter, Ashley, who worked in
her father’s office, thought Warner was her father’s
business partner. (R192: TR 5/22/19, Brown, A., Pg ID
2303). Pritula’s employees called Warner “50/50"
because they knew that he and Pritula split profits. (Id,
Pg ID 2365). According to an FBI audit, the total
amount Pritula paid Warner between 2010 and 2014
for all of Warner’s work was about $5.5 million. (R197:
TR 6/3/19: Witkowski, B., Pg ID 2981).
3. Warner was charged in Count Five of his
indictment with co-defendant Douglas Earles, the
owner of North Star Plumbing, another airport field
contractor. Count Five charged that Warner conspired
with Earles to commit Federal Program Theft in

-8violation of 18 U.S.C. §666(a)(1)(A) and to solicit and to
receive bribes paid by Earles in violation of both
Federal program bribery prohibitions, 18 U.S.C.
§§666(a)(1)(B) and 666(a)(2).
The conspiracy charge in Count Five alleges that:
THE CONSPIRACY
4. From in or about June of 2010, through in or
about April of 2015, in the Eastern District of
Michigan, Southern Division, and elsewhere,
defendants JAMES WARNER and DOUGLAS
EARLES did unlawfully, willfully, and
knowingly combine, conspire, confederate, and
agree with each other to commit:
a. Theft from a federally funded program, in
violation of Title 18, United States Code, Section
666(a)(1)(A); and
b. Federal program bribery, in violation of
Title 18, United States Code, Sections
666(a)(1)(B) and (a)(2).
(App E: Fifth Superseding Indictment, App. 46).
The government did not call Earles as a witness at
Warner’s trial even though Earles pled guilty and
agreed to cooperate with the government. According to
business records for Earles’ airport work, the airport
paid Earles’ company, North Star Plumbing,
$408,717.54 between September 2010 and April 2015.
Also according to those records, North Star Plumbing
paid Warner $113,426.04 during the same time period.
(R204-7: Ex DE-27, Pg ID 3406; R204-8: Ex DE-28, Pg

-9ID 3407; R197: TR 6/3/19, Witkowski, B., Pg ID 297778).
4. Warner was charged in Count Seven of his
indictment along with Gary Tenaglia, the owner of
Envision Engineering & Maintenance, LLC. The Count
Seven conspiracy charged only a single object offense,
that Warner conspired to solicit bribes in violation of 18
U.S.C. §666(a)(1)(B) from Tenaglia. The detail of
Count Seven, however, alleged that Tenaglia conspired
to corruptly offer and pay bribes to Warner as
prohibited by 18 U.S.C. §666(a)(2):
THE CONSPIRACY
4. From in or about May of 2011, through in or
about June of 2014, in the Eastern District of
Michigan, Southern Division, and elsewhere,
defendant JAMES WARNER did unlawfully,
willfully, and knowingly combine, conspire,
confederate, and agree with Gary Tenaglia and
others to corruptly give, offer, and agree to give
thousands of dollars in cash to JAMES
WARNER, with the intent to influence and
reward JAMES WARNER in connection with a
business, transaction, or series of transactions of
the WCAA invovlving $5,000 or more, in
violation of Title 18, United States Code, Section
666(a)(1)(B).
(Appendix E: 5th Superseding Indictment, App. 51).
Tenaglia testified at Warner’s trial that he was told
by Warner’s supervisor, Ali Dib to work with Warner
when Tenaglia’s company won its first contract to do
airport parking structure repair and maintenance in

-10about 2008. (R196: TR 5/30/19, Tenaglia, G., Pg ID
2753-56).
According to Tenaglia, he arranged to meet Warner
in about 2008 at a restaurant for dinner where Warner
proposed that Tenaglia pay him in return for Warner’s
assistance in processing Tenaglia’s airport contract
invoices. Tenaglia testified that Warner began their
dinner by examining Tenaglia’s clothing to see if he
was wearing a “wire.” During dinner, according to
Tenaglia, Warner explained that airport contractors
worked together as part of a “brotherhood,” and
suggested Tenaglia should pay him $5,000 by writing
the amount on the corner of a paper napkin Warner
showed him and then tore from the napkin and
swallowed. (Id, Pg ID 2762-68). Warner testified the
dinner took place without the dramatic details added
by Tenaglia.
According to business records for Tenaglia’s work at
the airport, Tenaglia’s company was paid about
$15,000,000 for parking structure maintenance and
snow removal between September 2010 and August
2014. Those records also showed that Tenaglia paid
Warner about $100,000 during the same time period.
(Id, Pg ID 2969, 2776-85).(R197: TR 6/3/19, Weiland, J.,
Pg ID 2999).
Tenaglia eventually became a government witness
after he was caught in his own unaided scheme to
inflate his invoices to the airport by more than $1
million for expensive snow deicing materials he used in
parking structure maintenance. (Id, Pg ID 2827-28).
Tenaglia agreed with the government in 2018 to plead
guilty for his fraudulent billing with a loss amount in

-11excess of $1.5 million. He also agreed to continue his
cooperation with the government’s investigation of Mr.
Warner. (Id, Pg ID 2835-43).
As part of his cooperation in 2017, Tenaglia
recorded conversations at the direction of the FBI with
Warner who was then a construction manager with
West Bloomfield Township, a suburban Detroit
community. In those recorded conversations, offered as
evidence in support of Count Nine of Warner’s
indictment charging Warner with soliciting a bribe
from Tenaglia in violation of 18 U.S.C. §666(a)(1)(B),
Tenaglia explained to Warner that he was interested in
obtaining construction work with Warner’s employer
and attempted to pass $1,000 in cash to Warner at the
direction of FBI agents as a bribe, but Warner refused
the money. Tenaglia’s recorded conversations with
Warner also include a discussion of a proposed
arrangement with Warner for Tenaglia to perform
work for the township that would be funded by start-up
money loaned to Tenaglia by Warner and paid back to
Warner by Tenaglia from his contract proceeds if he
was awarded the work. (Id, Pg ID 2873-75, 2885-88).
Tenaglia never obtained a contract with the Township.
5. The Indictment also charged in Counts Four, Six
and Eight that Warner conspired with each of the
contractors to launder the proceeds of the conspiracies
charged in Counts One, Five and Seven. Additional
counts charged that Warner stole and converted airport
funds to his own use in violation of 18 U.S.C.
§666(a)(1)(A) in Counts Two and Three, that he
committed bribery in violation of 18 U.S.C.
§666(a)(1)(B) with Gary Tenaglia on April 26, 2017

-12while he was employed as an agent of West Bloomfield
Township as charged in Count Nine, and that he
obstructed justice as alleged in Count 10 in violation of
18 U.S.C. §1519 on August 16, 2017 by providing a
falsified report of outside employment to the FBI in
order to impede their investigation in his case.
6. Although the grand jury charged Warner in
Counts One, Five and Seven with conspiracies to solicit
and receive bribes in violation of 18 U.S.C.
§666(a)(1)(B), Jury Instruction 15 erroneously told the
jury that each of those counts only charged a
conspiracy by which a contractor offered and paid
bribes to Warner in violation of a separate statute, 18
U.S.C. §666(a)(2). (App D: Jury Instruction 15, App.
36).
18 U.S.C. §666(a)(1)(B) and 18 U.S.C. §666(a)(2)
prohibit separate offenses. 18 U.S.C. §666(a)(1)(B)
prohibits solicitation and receipt of a Federal program
bribe by whoever,
corruptly solicits or demands for the benefit of
any person, or accepts or agrees to accept,
anything of value from any person, intending to
be influenced or rewarded in connection with
any business, transaction, or series of
transactions of such organization, government,
or agency involving any thing of value of $5,000
or more.
18 U.S.C. §666(a)(2) prohibits the offer and payment of
a Federal program bribe by whoever:
corruptly gives, offers, or agrees to give anything
of value to any person, with intent to influence

-13or reward an agent of an organization or of a
State, local or Indian tribal government, or any
agency thereof, in connection with any business,
transaction, or series of transactions of such
organization, government, or agency involving
anything of value of $5,000 or more.
Jury Instruction 15 (App. 36), however, instructed
that the only Federal program bribery object alleged in
Counts One, Five and Seven was bribery by contractors
who offered and paid bribes to Warner as prohibited by
18 U.S.C. §666(a)(2):
to corruptly give, offer and agree to give
thousands of dollars to James Warner with the
intent to influence or reward James Warner in
connection with a business transaction or series
of transactions of the Wayne County Airport
Authority involving $5,000 or more.
Instruction 15 repeated that instruction for each count
as a description of its bribery allegations.
Although the jury also was provided Warner’s
indictment during its deliberations, Counts One and
Five of Warner’s indictment include no allegations of
bribery except by citations to the statutes. Count Seven
cites to the payee bribery statute, 18 U.S.C.
§666(a)(1)(B), but sets forth allegations of bribery in
narrative language of the payor bribery statute,18
U.S.C. §666(a)(2). The jury was given no instruction
explaining the language of either bribery statute; and,
there was no objection by either party to the absence of
any instruction providing the content of the two
statutes to the jury.

-147. The jury returned verdicts of guilty on all counts.
8. The trial court denied Mr. Warner’s post-trial
motion for new trial. Warner asked for a new trial
because the Court had denied Warner’s pre-trial
motion to adjourn which he made because of his
lawyer’s increasing pain and loss of mobility caused by
a failed spinal surgery months before the trial. (R153:
Order Denying Motion For New Trial; R169: Order
Denying Reconsideration).
B. The Decision Below
The Court of Appeals affirmed Mr. Warner’s
conviction on February 8, 2021. (App A: Opinion and
Order, App. 1). It reviewed Mr. Warner’s claim of
constructive amendment for plain error because no
objection had been made at trial. Warner asked the
court to reverse because Instruction 15 constructively
amended his indictment by adding or amending
allegations of bribery not made by the grand jury for
each of the three counts charging conspiracy to commit
Federal Program Theft and Federal Program bribery.
The court applied the common Olano formulation of the
plain error test: “Plain error means that ‘(1) there was
an error (2) that was plain, (3) that affected a
substantial right, and (4) seriously affected the
fairness, integrity, or public reputation of the judicial
proceedings.’” (App A: Opinion, App. 10). Although
Warner asked the court to reverse because his
indictment was constructively amended by an
erroneous jury instruction adding offenses not charged
in violation of the Fifth Amendment grand jury clause,
the court reviewed the record to determine whether
there was a variance from Warner’s indictment by “a

-15combination of evidence and instructions”. (App A:
Opinion, App. 11).
The court’s Opinion explained that a constructive
amendment can only be found if shown when “a
combination of evidence and jury instructions []
effectively alters the terms of the indictment and
modifies the essential elements of the charged offense
to the extent that the defendant may well have been
convicted of a crime other than the one set forth in the
indictment.” Id. In this formulation, the Court
concluded that the error at Warner’s trial did not affect
Warner’s substantial rights because it was only “mildly
confusing,” (App A: Opinion, App. 12), and because
there was not a sufficient risk that Warner was
“convicted of a crime other than the one set forth in the
indictment.” (App A: Opinion, App. 11).
The Court also rejected Warner’s related argument
that his convictions for money laundering conspiracies
in Counts Two, Four and Eight of his indictment,
based on alleged laundering of proceeds from the
bribery and theft conspiracies charged in Counts One,
Five and Seven should be reversed, and that the trial
court’s denials of Warner’s motions to adjourn and for
new trial made because of trial counsel’s physical
disabilities caused by failed spinal surgeries were
abuses of discretion and reversible error. (App A:
Opinion, App. 6).
The Court denied Mr. Warner’s Motion for
Rehearing and Rehearing En Banc on March 29, 2021.
(App C: Order Denying Rehearing, App. 34).

-16REASONS FOR GRANTING THE PETITION
I. THIS CASE PRESENTS AN IMPORTANT AND
RECURRING QUESTION DIVIDING LOWER COURTS
ON PLAIN ERROR REVIEW OF CONSTRUCTIVE
AMENDMENTS OF INDICTMENTS BY ERRONEOUS
JURY INSTRUCTIONS, WHETHER THOSE ERRORS
AFFECT SUBSTANTIAL RIGHTS .
The question at the center of this case is the
recurring one dividing lower courts, whether the
amendment of an indictment by a jury instruction
broadening charges made by the grand jury violates the
Fifth Amendment grand jury clause and should be
recognized on plain error review as a serious error in
violation of the defendant’s substantial rights. This
question arises in this case from a jury instruction
adding allegations of conspiracy to offer and pay bribes
in violation of 18 U.S.C. §666(a)(2) in place of charges
made by the grand jury of conspiracy to solicit and
receive bribes in violation of 18 U.S.C. §666(a)(1)(B).
A. An Erroneous Jury Instruction That
Broadens Charges Made By The Grand
Jury Is Prejudicial Per Se.
This Court recognized in Stirone v. United States,
361 U.S. 212 (1960), where objection to an erroneous
jury instruction broadening the essential elements of
the offense charged in an indictment was preserved,
that the error violates the Fifth Amendment grand jury
clause because no “court can know that the grand jury
would have been willing to charge” the conduct as an
offense. Id. at 217. “Deprivation of such a right is far

-17too serious to be treated as nothing more than a
variance and then dismissed as harmless error.” Id.
In Stirone, the defendant was charged with
extortion in violation of the Hobbs Act, 18 U.S.C.
§1951. An element of the Hobbs Act offense requires
proof of an affect on interstate commerce. Id. at 213.
The indictment alleged that interstate commerce
affected by the defendant’s extortion was movement of
supplies into Pennsylvania for the construction of a
steel-processing plant. At Stirone’s trial, however, the
court allowed the prosecution to offer evidence over the
defendant’s objection of an affect on commerce by the
shipment of steel products produced by the constructed
plant to other states. The court also instructed the jury
over the defendant’s objection that guilt could rest on
either ground. Id. at 213.
This Court has explained that the purpose of the
rule in Stirone requiring that the defendant is tried on
the charge as made by the by grand jury, “is to limit his
jeopardy to offenses charged by a group of citizens
acting independently of either prosecuting attorney or
judge.” Russell v. United States, 369 U.S. 749, 772
(1982). The purpose served by grand jury indictment
begins with the Fifth Amendment guaranty of felony
charge only by a grand jury and the Sixth Amendment
guaranty of the defendant’s right “to be informed of the
nature and cause of the accusation.” Id. at 761.
Lower courts have agreed with the rule in Stirone
where objection is preserved, that the error is per se.
The reason is straightforward. “Plainly and simply, ‘a
court cannot permit a defendant to be tried on charges
that are not made in the indictment against him.’”

-18United States v. Floresca, 38 F.3d 706, 711, n. 12 (4th
Cir. 1994) (collecting cases in agreement from all
circuits); United States v. Zingaro, 858 F.2d 94, 97 (2nd
Cir. 1988); United States v. Hathaway, 798 F.2d 902,
910-912 (6th Cir. 1986); United States v. Leichtnam,
948 F.2d 370, 379-81 (7th Cir. 1991). The basis for
presuming prejudice, whether objection is made or not,
is similarly grounded in the Fifth Amendment: that a
constructive amendment results in a broadening of the
basis for conviction without being passed on by the
grand jury. (“We stress that it is the broadening itself
that is important – nothing more. It matters not, if a
constructive amendment has occurred, whether the
fact-finder could have concluded (as it surely could
have based on reasonable inferences arising from
Lopez’s testimony) that Floresca intended to influence
both the investigation and his trial.”).”United States v.
Floresca, 38 F.3d at 711; United States v. Syme, 276
F3d 131 (3rd Cir. 2002) (applying a rebuttable
presumption that constructive amendments are
prejudicial because “it is very difficult for a defendant
to prove prejudice resulting from most constructive
amendments to an indictment.) Id. at 154. (emphasis in
original); United States v. Lawton, 995 F.2d 290, 294
(D.C. Cir. 1993) (“The trial court’s instructions thus
violated the Grand Jury Clause just as surely as if the
court had written additional charges onto the grand
jury’s ‘true bill.’”).
However, lower courts remain in substantial
disagreement whether presumptive prejudice must
apply when an erroneous jury instruction that
similarly broadens an indictment, as did Warner’s, is
reviewed on appeal for plain error pursuant to Federal

-19Rule of Criminal Procedure 52(b) where no objection is
made at trial. The outcome to this question now
depends on the circuit where the issue is raised.
B. Since Stirone, Lower Courts Are In Open
Disagreement Whether An Erroneous Jury
Instruction Broadening An Indictment,
Where Objection Is Not Preserved, Affects
The Defendant’s Substantial Rights And Is
Plain Error.
Lower courts have reached significantly disparate
results applying plain error review to claims of
constructive amendments by jury instructions where
an objection has not been preserved. The Second and
Fourth Circuits, Floresca, supra, United States v.
Thomas, 274 F.3d 655 (2nd Cir. 2001), have found per
se error. The Third Circuit applies a rebuttable
presumption of prejudice. United States v. Syme, 276
F.3d 131, 155 (3rd Cir. 2002). The Eleventh Circuit
agrees that a jury instruction broadening the
allegations of the indictment is a constructive
amendment and plain error. United States v. Madden,
733 F.3d 1314 (11th Cir. 2013) (“[W]e find it selfevident in this case that the error seriously affects the
fairness, integrity, and public reputation of judicial
proceedings.”) Id. at 1323. A fundamental principle
stemming from the Fifth Amendment grand jury clause
“is that a defendant can only be convicted for a crime
charged in the indictment.” United States v. Keller, 916
F.2d 628, 633 (11th Cir. 1990).
Other circuits, however, including the First, Fifth,
Sixth and Seventh Circuits, “adhere to the usual plain
error formulation when considering constructive

-20amendments, requiring the defendant to bear the
burden of showing specific prejudice.” United States v.
Brandao, 539 F.3d 44, 58 (1st Cir. 2008)(collecting
cases).
The source of this marked disparity in outcomes
among the circuits lies in their approaches to the
“affects substantial rights” factor of the plain error
formulation as applied to constructive amendments.
Under the plain-error test of Federal Rule of Criminal
Procedure 52(b), an appellate court only “can correct an
error not raised before the trial court, if there is
“(1) ‘error,’ (2) that is ‘plain,’ and (3) that ‘affect[s]
substantial rights.’” Johnson v. United States, 520 U.S.
461, 466-467 (1997) (quoting United States v. Olano,
507 U.S. 725, 732 (1993). “If all three conditions are
met, an appellate court may then exercise its discretion
to notice a forfeited error, but only if (4) the error
seriously affect[s] the fairness, integrity, or public
reputation of judicial proceedings. Johnson, 520 U.S. at
467 (internal quotation marks omitted)(quoting Olano,
supra); United States v. Cotton, 535 U.S. 625, 632
(2002).
Courts concluding that jury instruction error
constructively amends an indictment when it broadens
the charges made by the grand jury and is plain error
agree that the error is a serious violation of the Fifth
Amendment grand jury clause. These courts answer
the question left open in Olano, whether there are
some forfeited errors that must be corrected “regardless
of their effect on the outcome,” 507 U.S. at 735, by
extending the holding in Stirone to constructive
amendments by jury instruction where no objection

-21was made at trial. (“Because the Stirone Court held
that the error occasioned by constructive amendments
can never be harmless, [ ]it follows that such errors
must affect substantial rights.”) Floresca, Id. at 713.
These courts ground their analyses in the same
purposes to protect the defendant’s Fifth Amendment
right to grand jury indictment and Sixth Amendment
right to notice articulated by this Court in Russell and
Stirone.
The Fourth Circuit sitting en banc in Floresca,
supra, held that an erroneous jury instruction defining
elements of a witness tampering offense different than
the one charged by the grand jury was error per se and
satisfied all Olano factors because it violated the Fifth
Amendment grand jury clause. “[I]t is ‘utterly
meaningless’ to posit that any rational grand jury could
or would have indicted Floresca under Paragraph 3,
because it is plain that this grand jury did not, and
absent waiver, a constitutional verdict cannot be had
on an unindicted offense.” Id. at 712. (emphasis in the
original). According to the Court in Floresca, a
conviction on a charge not returned by a grand jury is
most serious and must be corrected on appellate review
even when no objection has been made at trial because
it affects the integrity and public reputation of a
federal conviction. “We do not hesitate to say that
convicting a defendant of an unindicted crime affects
the fairness, integrity and public reputation of a federal
judicial proceeding in a manner most serious.” Id. at
714. Because, according to the court in Floresca, “it is
the broadening itself that is important,” Id. at 711, it
matters not whether the fact-finder could have found

-22the defendant’s guilt if a constructive amendment has
occurred. Id.
Similarly, the Second Circuit sitting en banc in
Thomas, supra, where the defendant received an
enhanced sentence for a drug offense without an
indictment allegation of drug quantity required by
Apprendi v. New Jersey, 530 U.S. 466 (2000), concluded
that the resulting constructive amendment of the
indictment by the defendant’s conviction and sentence
for an offense not charged in his indictment was per se
prejudicial, Id. at 671, because “it would be
inappropriate for a court to speculate as to whether a
grand jury might have returned an indictment in
conformity with the available evidence . . .” Id. at 670.
The same reluctance to speculate about what the
grand jury might have done with an alternative theory
of fraud not alleged in the indictment led the Third
Circuit in Syme, supra, to hold that a jury instruction
adding a theory of fraud – not an allegation of violating
a statute different than alleged in the indictment as in
Warner – was sufficiently serious to require a
presumption of prejudice under plain error review and
to require the government to bear the burden to
establish the constructive amendment was not
prejudicial. Id. at 155. See also, United States v. McKee,
506 F.3d 225-233 (3rd Cir. 2007), holding that a jury
instruction adding examples of employment tax fraud
not alleged in the indictment was presumed prejudicial
because “it is nearly impossible for a defendant to
demonstrate that his/her conviction was based on
particular evidence or a particular theory.” Id. at 232.

-23The Eleventh Circuit, in United States v Madden,
733 F.3d 1314, 1323 (11th Cir. 2013), while reversing
after concluding that a jury instruction for possession
of a firearm “during and in relation to “ a drug crime
was not charged in the defendant’s indictment and was
a constructive amendment, explained that it did so
because it could not say “with certainty that the
defendant was convicted “solely on the charge made in
the indictment.” Id. at 1323. Other courts, however,
have refused to adopt the view of the Second, Third,
and Fourth Circuits, that jury instructions adding
offenses not charged by the grand jury are serious
constitutional defects.
The First Circuit, as a matter of first impression,
has explained that a defendant who attempts to
establish a constructive amendment bears the
additional burden of “demonstrating a reasonable
probability that, but for the error, the result of the
proceedings would have been different.” United States
v. Brandao, 539 F.3d 44, 58 (1st Cir. 2008). In
Brandao, the Court accepted the parties agreement
that a jury instruction that described a RICO
racketeering act as a substantive crime of murder was
a constructive amendment and plain error, but was
reluctant to abandon the usual plain error rule and
place the burden on the defendant to show prejudice. It
did so for several policy reasons including this Court’s
lack of resolution of the issue. Id. at 61. In the end,
however, the court was satisfied that Brandao was
denied neither Fifth nor Sixth Amendment protections
because the questioned murder allegation was included
in another part of his indictment. Id. at 62.

-24The Sixth Circuit, in Warner’s case, has required
the defendant whose indictment has been amended by
an erroneous instruction to bear some measure of
burden to establish that the resulting error is serious
and affects the fairness and integrity of the proceedings
within the language of Olano. (App. A: App. 11). To
reach this result, the Sixth Circuit places constructive
amendment in the category of factual variances, as “a
more subtle modification to the indictment.” United
States v. Combs, 369 F.3d 925, 935 (6th Cir. 2004). On
this basis, it placed the burden on Warner to prove
Instruction 15 prejudiced his defense. (App. A: App.
11). Combs at 936 (“Constructive amendments are
variances occurring when an indictment’s terms are
effectively altered by the presentation of evidence and
jury instructions that ‘so modify essential elements of
the offense charged that there is a substantial
likelihood the defendant [was] convicted of an offense
other than that charged in the indictment.’”). Id.
Similarly, the Fifth Circuit, in United States v.
Reyes,102 F.3d 1361 (5th Cir. 1996) refused to find
plain error where the trial court instructed the jury
that to convict the defendant of a firearm possession in
relation to a drug trafficking crime in violation of 18
U.S.C. §924(c), it must find conspiracy to possess drugs
instead of possession of drugs as alleged in the
indictment. The court concluded the instruction
constructively amended the indictment, but exercised
its discretion to decide the defendant was not
prejudiced by lack of notice. Id. at 1365. It also refused
to reverse based on the cynical view that a contrary
decision would encourage defense attorneys to
“sandbag,” to leave correction of erroneous jury

-25instructions to appeal instead of objecting at trial. Id.
at 1366. In the Seventh Circuit, the Court has required
the defendant to show “the amendment must constitute
a mistake so serious that but for it the [defendant]
probably would have been acquitted in order for [the
Court] to reverse.” United States v. Remsza, 77 F.3d
1039, 1044 (7th Cir. 1996).
Petitioner’s case presents an excellent vehicle on
which to resolve this significant disparity and to clarify
application of the rule in Stirone, where objection has
not been made at trial to an erroneous instruction that
adds offenses to an indictment not passed on by the
grand jury.
II. THE SIXTH CIRCUIT ERRED IN HOLDING THAT THE
ERRONEOUS JURY INSTRUCTION BROADENING
CHARGES IN THREE COUNTS OF WARNER’S
INDICTMENT WAS NOT PLAIN ERROR.
The Sixth Circuit also erred in its analysis of
Warner’s constructive amendment claim by failing to
meaningfully distinguish between constructive
amendment broadening allegations of criminal conduct,
Stirone, 361 U.S. at 216, and a variance or a
divergence of alleged facts. Courts are divided in
analysis of these distinctions.
A jury instruction “broadening the bases for
conviction from that which appeared in the indictment”
is a constructive amendment. United States v. Miller,
471 U.S. 130, 138 (1985) (emphasis in original).
However, facts proved at trial that deviate from those
alleged in the indictment but where the offenses
remain the same are a variance. Miller, 471 U.S. at

-26145. (“The variance complained of added nothing new
to the grand jury’s indictment and constituted no
broadening.”)
According to the Sixth Circuit, a variance occurs
“when charging terms are left unaltered, but the
evidence offered at trial proves facts materially
different from those alleged in the indictment,” United
States v. Combs, 369 F.3d 925, 935-936 (6th Cir. 2004);
and, a constructive amendment is a form of variance
requiring the defendant to show prejudice. According to
the Sixth Circuit, a “[c]onstructive amendment occurs
when an indictment’s terms are effectively altered by
the presentation of evidence and jury instructions that
‘so modify essential elements of the offense charged
that there is a substantial likelihood the defendant
[was] convicted of an offense other than that charged in
the indictment.” Combs, 369 F.3d at 936. The Court
applied that definition of constructive amendment in
Warner, requiring the defendant to show prejudice, to
reject his claim of constructive amendment by
Instruction 15 that advised the jury Warner was
charged differently than as alleged in the indictment.
According to the Opinion in Warner, Instruction 15
only “framed” allegations of bribery, although as
violations of a statute different than as alleged by the
grand jury. (App A: App. 11).
Courts are divided in applying the constructive
amendment/variance test used by the Sixth Circuit.
The Fifth Circuit, United States v. Salinas, 654 F.2d
319, 324 (5th Cir. 1981), and the District of Columbia
Circuit Court, Gaither v. United States, 413 F.2d 1061,

-271071 (D.C. Cir. 1969), agree with Combs and apply the
same test.
Other courts, however, have rejected the Sixth
Circuit test because it fails to meaningfully distinguish
between a factual variance within the scope of the
indictment allegations and an alteration of an
indictment that “broaden[s] the possible bases for
conviction beyond what is contained in the indictment”.
United States v. Keller, 916 F.2d 628, 634 (11th Cir.
1990); United States v. Zingaro, 858 F.2d 94, 103 (2nd
Cir. 1988) (evidence that impermissibly broadened the
charges against Zingaro resulted in a constructive
amendment requiring reversal. In Keller, the Court
held that substitution of the word “anyone” in a jury
instruction, to define those with whom Keller was
charged in his indictment with conspiring to violate
laws of the United States, for the specific identification
of Millard Lee Smith in his indictment as his sole coconspirator, was an impermissible amendment because
it allowed “the jury to convict him if he conspired with
anyone, when the indictment alleged he conspired
solely with Smith.” Id. at 636.
At least three Circuit Courts support the rule
defined in Keller, that impermissible amendments
occur when instructions broaden the grand jury’s
charges, and are serious constitutional violations, not
factual variances. United States v. Floresca, 38 F.3d
706, 711 (4th Cir. 1994) (“We stress that it is the
broadening itself that is important – nothing more.”);
United States v. Syme, 276 F.3d 131, 151 (3rd Cir.
2002)(“Cases from the Supreme Court and this court
hold that it violates the Grand Jury Clause of the Fifth

-28Amendment when a court instructs a jury on a ground
of conviction that is not fully contained in the
indictment.”); United States v. McKee, 506 F.3d 225,
231 (3rd Cir. 2007)(“Nevertheless, the Defendants can
not be convicted on the basis of an affirmative act that
is not included in jury instructions, but not charged in
the indictment.”); United States v. Dipentino, 242 F.3d
1090, 1095 (9th Cir. 2001)(“It is evident that the
district court constructively amended the indictment
because the jury instruction permitted the jury to
convict the defendants of violating a work practice
standard they were not charged in the indictment with
violating, namely that ‘all asbestos-containing waste
material shall be deposited as soon as is practical by
the waste generator at a waste disposal site that meets
appropriate federal requirements.”); and, United States
v. Madden, 733 F.3d 1314, n.3 (11th Cir. 2013)
(“Regardless of how one looks at it, the court’s
instruction still provided a basis for conviction that was
not included in the indictment–carrying a firearm
during and in relation to a drug trafficking offense.”).
This Court should grant certiorari to clarify the
application of this important rule critical to
distinguishing between constructive amendment and
variance.

-29CONCLUSION
For the foregoing reasons, the Petition for Writ of
Certiorari should be granted.
Respectfully Submitted,
GUREWITZ & RABEN, PLC
By: /s/Harold Gurewitz
HAROLD GUREWITZ (P14468)
Counsel of Record
GUREWITZ & RABEN, PLC
333 W. FORT STREET
SUITE 1400
DETROIT, MI 48226
(313) 628-4733
hgurewitz@grplc.com
DATE: August 13, 2021

